CERTIFICATE OF SERVICE
NO. TBD
James Huff
Petitioner(s)
v.
Telecheck Services, Inc., Et Al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JAMES
HUFF PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
David Ruben Esquivel
Bass, Berry & Sims PLC
150 Third Avenue South
Suite 2800
Nashville, TN 37201
(615) 742-6285
Counsel for Telecheck Services, Inc., Et Al.

Lucas DeDeus

December 11, 2019
SCP Tracking: Holmes-Fifth Third Center, Suite 800-Cover White

